James R. Nuttall
312 577 1261
jnuttall@steptoe.com
227 West Monroe Street
Suite 4700
Chicago, IL 60606
312 577 1300 main
www.steptoe.com

January 8, 2021

VIA ELECTRONIC FILING
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street N.E.
Washington, D.C. 20543
Re:

American Axle and Manufacturing, Inc. v. Neapco Holdings LLC et al.,
No. 20-891

Dear Mr. Harris:
I am counsel of record for Petitioner in the above-referenced case. Pursuant to
Rule 37.2(a), petitioners hereby consent to the filing of amicus curiae briefs in support of
either or neither party, if filed within the time allowed by the Court’s rules.
Regards,

James R. Nuttall
Counsel of Record for Petitioner
cc: Counsel for Respondents (via email and FedEx)

